TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Independent Attestation Review of the
                Internal Revenue Service’s Fiscal Year 2012
                Annual Accounting of Drug Control Funds and
                           Related Performance



                                        January 25, 2013

                              Reference Number: 2013-10-019




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


INDEPENDENT ATTESTATION REVIEW                         The Chief Financial Officer, or another
OF THE INTERNAL REVENUE                                accountable senior level executive, of each
SERVICE’S FISCAL YEAR 2012 ANNUAL                      agency for which a Detailed Accounting
ACCOUNTING OF DRUG CONTROL                             Submission is required, shall provide a
                                                       Performance Summary Report to the Director of
FUNDS AND RELATED PERFORMANCE
                                                       the ONDCP. Further, the Circular requires that
                                                       each report be provided to the agency’s
Highlights                                             Inspector General for the purpose of expressing
                                                       a conclusion about the reliability of each
                                                       assertion made in the report prior to its
Final Report issued on January 25, 2013                submission.
Highlights of Reference Number: 2013-10-019            WHAT TIGTA FOUND
to the Internal Revenue Service Chief
Financial Officer and Chief, Criminal                  Based on our review, nothing came to our
Investigation.                                         attention that caused us to believe that the
                                                       assertions in the Detailed Accounting
IMPACT ON TAXPAYERS                                    Submission and Performance Summary
                                                       Report are not fairly presented in all
TIGTA reviewed the assertions in the IRS’s             material respects in accordance with
Office of National Drug Control Policy (ONDCP)         ONDCP-established criteria.
Detailed Accounting Submission and
Performance Summary Report for Fiscal                  WHAT TIGTA RECOMMENDED
Year 2012. IRS management is responsible for
preparing the report.                                  TIGTA made no recommendations as a result of
                                                       the work performed during this review.
Based on our review, nothing came to our               However, key IRS officials reviewed this report
attention that caused us to believe that the           prior to its issuance and agreed with the facts
assertions in the Detailed Accounting                  and conclusions presented.
Submission and Performance Summary Report
are not fairly presented in all material respects in
accordance with ONDCP-established criteria.
Complete and reliable financial and performance
information is critical to the IRS’s ability to
accurately report on the results of its operations
to both internal and external stakeholders,
including taxpayers.
WHY TIGTA DID THE AUDIT
This review was conducted as required by the
ONDCP and the ONDCP Circular: Drug Control
Accounting, dated May 1, 2007. The National
Drug Control Program agencies are required to
submit to the Director of the ONDCP, not later
than February 1 of each year, a detailed
accounting of all funds expended (the ONDCP
Circular requires amounts obligated) during the
previous fiscal year. Agencies also need to
identify and document performance measure(s)
that justify the results associated with these
expenditures.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 25, 2013


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER
                CHIEF, CRIMINAL INVESTIGATION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Independent Attestation Review of the Internal
                             Revenue Service’s Fiscal Year 2012 Annual Accounting of Drug
                             Control Funds and Related Performance (Audit # 201210030)

 This report presents the results of our attestation review of the Internal Revenue Service’s Fiscal
 Year 2012 Office of National Drug Control Policy Detailed Accounting Submission and
 Performance Summary Report (the Report). The overall objective of this review was to express
 a conclusion about the reliability of each assertion made in the Report. This review is included
 in our Fiscal Year 2013 Annual Audit Plan and addresses the major management challenge of
 Achieving Program Efficiencies and Cost Savings.
 The Treasury Inspector General for Tax Administration made no recommendations as a result of
 the work performed during this review. However, key Internal Revenue Service officials
 reviewed this report prior to its issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the Internal Revenue Service managers affected
 by the report results. If you have any questions, please contact me or Gregory D. Kutz,
 Assistant Inspector General for Audit (Management Services and Exempt Organizations).
                          Independent Attestation Review of the Internal Revenue
                       Service’s Fiscal Year 2012 Annual Accounting of Drug Control
                                      Funds and Related Performance




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Summary of the Independent Attestation Review of the Fiscal Year 2012
          Office of National Drug Control Policy Detailed Accounting
          Submission and Performance Summary Report ........................................... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 4
          Appendix II – Major Contributors to This Report ........................................ Page 6
          Appendix III – Report Distribution List ....................................................... Page 7
          Appendix IV – Internal Revenue Service’s Fiscal Year 2012 Detailed
          Accounting Submission and Related Performance Summary Report .......... Page 8
           Independent Attestation Review of the Internal Revenue
        Service’s Fiscal Year 2012 Annual Accounting of Drug Control
                       Funds and Related Performance




                       Abbreviations

FY               Fiscal Year
IRS              Internal Revenue Service
ONDCP            Office of National Drug Control Policy
                      Independent Attestation Review of the Internal Revenue
                   Service’s Fiscal Year 2012 Annual Accounting of Drug Control
                                  Funds and Related Performance




                                            Background

The Anti-Drug Abuse Act of 19881 establishes as a
policy goal the creation of a drug-free America. A key           National Drug Control Program
                                                                agencies are required to submit
provision of the Act is the establishment of the Office of        to the Director of the ONDCP,
National Drug Control Policy (ONDCP) to set priorities,         not later than February 1 of each
implement a national strategy, and certify Federal              year, a detailed accounting of all
Government drug control budgets. The Internal                      funds expended during the
Revenue Service (IRS) supports the National Drug                       previous fiscal year.
Control Strategy through its continued support of the
Organized Crime Drug Enforcement Task Force. The
mission of Criminal Investigation in Federal law enforcement’s anti-drug efforts is to reduce or
eliminate the financial gains (profits) of major narcotics trafficking and money laundering
organizations through the use of its unique financial investigative expertise and statutory
jurisdiction.
This review was conducted as required by the ONDCP and the ONDCP Circular: Drug Control
Accounting, dated May 1, 2007. The National Drug Control Program agencies2 are required to
submit to the Director of the ONDCP, not later than February 1 of each year, a detailed
accounting of all funds expended (the ONDCP Circular requires amounts obligated) during the
previous fiscal year.3 Agencies also need to identify and document performance measure(s) that
justify the results associated with these expenditures. The Chief Financial Officer, or another
accountable senior level executive, of each agency for which a Detailed Accounting Submission
is required, shall provide a Performance Summary Report to the Director of the ONDCP.
Further, the Circular requires that each report be provided to the agency’s Inspector General for
the purpose of expressing a conclusion about the reliability of each assertion made in the report
prior to its submission.
This review was performed at the IRS Headquarters offices of the Chief Financial Officer and
Chief, Criminal Investigation, in Washington, D.C., during the period October 2012 through
January 2013. Our review was conducted in accordance with attestation standards established by
the American Institute of Certified Public Accountants and in compliance with generally
accepted government auditing standards. In general, our review procedures were limited to
inquiries and analytical procedures appropriate for an attestation review based upon the criteria

1
  Pub. L. No. 100-690, 102 Stat. 4181 (1988).
2
  A National Drug Control Program agency is defined as any agency that is responsible for implementing any aspect
of the National Drug Control Strategy.
3
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                         Page 1
                   Independent Attestation Review of the Internal Revenue
                Service’s Fiscal Year 2012 Annual Accounting of Drug Control
                               Funds and Related Performance



in the ONDCP Circular. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                       Page 2
                    Independent Attestation Review of the Internal Revenue
                 Service’s Fiscal Year 2012 Annual Accounting of Drug Control
                                Funds and Related Performance




                                 Results of Review

Summary of the Independent Attestation Review of the Fiscal
Year 2012 Office of National Drug Control Policy Detailed Accounting
Submission and Performance Summary Report
We reviewed the assertions in the IRS’s ONDCP Detailed Accounting Submission
and Performance Summary Report (the Report) for Fiscal Year (FY) 2012, which
ended September 30, 2012 (see Appendix IV). The Report was prepared pursuant to
21 U.S.C. 1704 (d) and the ONDCP Circular: Drug Control Accounting, dated May 1, 2007.
IRS management is responsible for preparing the Report.
Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants and in compliance with generally accepted government
auditing standards. An attestation review is substantially less in scope than an examination, the
objective of which is the expression of an opinion on the Report. Accordingly, we do not
express such an opinion.
Based on our review, nothing came to our attention that caused us to believe that the
assertions in the Report are not fairly presented in all material respects in accordance with
ONDCP-established criteria.
While this report is an unrestricted public document, the information it contains is intended
solely for the use of the IRS, the U.S. Department of the Treasury, the ONDCP, and Congress. It
is not intended to be, and should not be, used by anyone other than these specified parties.




                                                                                                Page 3
                      Independent Attestation Review of the Internal Revenue
                   Service’s Fiscal Year 2012 Annual Accounting of Drug Control
                                  Funds and Related Performance



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to perform an attestation review of the IRS’s reporting
of FY1 2012 ONDCP expenditures and related performance for the purpose of expressing a
conclusion about the reliability of each assertion made in the Detailed Accounting Submission
and Performance Summary Report. To accomplish our objective, we:
I.      Obtained an understanding of the process used to prepare the FY 2012 Detailed
        Accounting Submission and Performance Summary Report.
        A. Discussed the process used to record ONDCP expenditures and performance
           information with responsible IRS personnel.
        B. Obtained documents such as written procedures and supporting worksheets that
           evidence the methodology used.
II.     Evaluated the reasonableness of the drug methodology process for detailed accounting
        submissions.
        A. Reviewed data supporting the Detailed Accounting Submission to establish the
           relationship to the amounts being reported.
        B. Verified whether all drug-related activities are reflected in the drug methodology.
III.    Performed sufficient verifications of reported obligations for detailed accounting
        submissions to support our conclusion on the reliability of the assertions.
        A. Verified that the Detailed Accounting Submission included all of the elements
           specified in Section 6 of the ONDCP Circular: Drug Control Accounting.
        B. Verified the mathematical accuracy of the obligations presented in the Table of
           FY 2012 Drug Control Obligations.
        C. Traced the information contained in the Table of FY 2012 Drug Control Obligations
           to the supporting documentation.




1
 A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                   Page 4
                  Independent Attestation Review of the Internal Revenue
               Service’s Fiscal Year 2012 Annual Accounting of Drug Control
                              Funds and Related Performance



IV.   Evaluated the reasonableness of the methodology used to report performance information
      for National Drug Control Program activities.
      A. Reviewed data supporting the Performance Summary Report to establish the
         relationship to the National Drug Control Program activities.
      B. Verified whether all drug-related activities are reflected in the performance
         information.
V.    Performed sufficient verifications of reported performance information to support our
      conclusion on the reliability of the assertions.
      A. Verified that the Performance Summary Report included all of the elements specified
         in Section 7 of the ONDCP Circular: Drug Control Accounting.
      B. Verified the mathematical accuracy of the performance information presented.
      C. Traced the performance information presented to the supporting documentation.
      D. Reviewed the supporting documentation for reasonableness.




                                                                                         Page 5
                   Independent Attestation Review of the Internal Revenue
                Service’s Fiscal Year 2012 Annual Accounting of Drug Control
                               Funds and Related Performance



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Anthony J. Choma, Audit Manager
Kanika Kals, Lead Auditor
Yasmin B. Ryan, Senior Auditor




                                                                                    Page 6
                  Independent Attestation Review of the Internal Revenue
               Service’s Fiscal Year 2012 Annual Accounting of Drug Control
                              Funds and Related Performance



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Chief Financial Officer OS:CFO
Deputy Chief, Criminal Investigation SE:CI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Chief, Criminal Investigation SE:CI




                                                                        Page 7
       Independent Attestation Review of the Internal Revenue
    Service’s Fiscal Year 2012 Annual Accounting of Drug Control
                   Funds and Related Performance



                                                     Appendix IV

Internal Revenue Service’s Fiscal Year 2012
    Detailed Accounting Submission and
   Related Performance Summary Report




                                                             Page 8
   Independent Attestation Review of the Internal Revenue
Service’s Fiscal Year 2012 Annual Accounting of Drug Control
               Funds and Related Performance




                                                         Page 9
   Independent Attestation Review of the Internal Revenue
Service’s Fiscal Year 2012 Annual Accounting of Drug Control
               Funds and Related Performance




                                                        Page 10
   Independent Attestation Review of the Internal Revenue
Service’s Fiscal Year 2012 Annual Accounting of Drug Control
               Funds and Related Performance




                                                        Page 11
   Independent Attestation Review of the Internal Revenue
Service’s Fiscal Year 2012 Annual Accounting of Drug Control
               Funds and Related Performance




                                                        Page 12
   Independent Attestation Review of the Internal Revenue
Service’s Fiscal Year 2012 Annual Accounting of Drug Control
               Funds and Related Performance




                                                        Page 13
   Independent Attestation Review of the Internal Revenue
Service’s Fiscal Year 2012 Annual Accounting of Drug Control
               Funds and Related Performance




                                                        Page 14
   Independent Attestation Review of the Internal Revenue
Service’s Fiscal Year 2012 Annual Accounting of Drug Control
               Funds and Related Performance




                                                        Page 15
